                Office of Inspector General




September 24, 2004

LAWRENCE K. JAMES
MANAGER, RIO GRANDE DISTRICT

SUBJECT: Audit Report – Self-Service Vending Program – Rio Grande District
         (Report Number DR-AR-04-010)

This is one of a series of audit reports on the Self-Service Vending Program in the
Southwest Area. The report presents the results of our self-initiated audit on the
Self-Service Vending Program in the Rio Grande District (Project Number
04YG024DR001). The information in this district report will be included in a report
to the Southwest Area Vice President.

                                                   Background
The Self-Service Vending Program, implemented in October 1964, is one of the Postal
Service’s major programs. It provides Postal Service customers with a convenient
alternative for purchasing stamps and other basic Postal Service products after
business hours and without the need to stand in line during business hours.

Nationwide, the Postal Service maintains approximately 30,000 vending machines
(27,000 self-service postal centers and 3,000 other types of vending equipment) that
generated over $1.9 billion in revenue during fiscal years (FY) 2001 through 2003.
During FY 2003, the Southwest Area had 3,876 pieces of vending equipment that
generated over $87 million in revenue, of which the Rio Grande District maintained
21 percent (823) of the total area machines that generated 21 percent ($18 million) of
the total area vending revenue. During the first quarter of FY 2004, the Southwest Area
had 3,989 pieces1 of vending equipment that generated over $23 million in revenue, of
which the Rio Grande District maintained 21 percent (8362) of the total area machines
that generated 22 percent ($5 million) of the total area vending revenue.




1
    The Southwest Area had 113 additional vending machines during the first quarter of FY 2004.
2
    The Rio Grande District had 13 additional vending machines during the first quarter of FY 2004.

       1735 N Lynn St.
       Arlington, VA 22209-2020
       (703) 248-2100
       Fax: (703) 248-2256
Self-Service Vending Program –                                                           DR-AR-04-010
 Rio Grande District



                           Objective, Scope, and Methodology
The objective of our audit was to determine whether the Self-Service Vending Program
is effectively and efficiently meeting program goals of increasing revenue and reducing
operating costs. Specifically, in this review, we determined whether Self-Service
Vending Program managers have effectively redeployed vending equipment that does
not meet minimum revenue requirements in order to maximize revenue, and
discontinued the use of obsolete vending equipment. We also physically observed a
judgmental sample of 20 vending machines to determine whether the machines were
operational and easily accessible. For the 823 vending machines operating in the
Rio Grande District during FY 2003, 1213 were classified as obsolete based on Postal
Service guidance, while the remaining 702 were classified as current equipment. For
the first quarter of FY 2004, 836 vending machines were operating in the Rio Grande
District, of which 1264 were classified as obsolete, and the remaining 710 were
classified as current equipment.

During our audit, we visited Postal Service facilities, interviewed managers and
employees, reviewed documentation and applicable policies and procedures, and
analyzed data in the Postal Service’s Vending Equipment Sales and Service System
(VESS) for FY 2003 and the first quarter of FY 2004 to identify obsolete equipment and
equipment that did not meet the minimum revenue requirements.5 Although we relied
on data obtained from VESS, we did not test the validity of the data and controls over
the system.

Audit work associated with the Rio Grande District was conducted from July through
September 2004 in accordance with generally accepted government auditing standards
and included such tests of internal controls as were considered necessary under the
circumstances. We discussed our observations and conclusions with appropriate
management officials and included their comments, where appropriate.

                                       Prior Audit Coverage
The Office of Inspector General (OIG) has issued three reports related to the objective
of this audit.

Self-Service Vending Program - Tennessee District (Report Number DR-AR-04-003,
June 30, 2004), Self-Service Vending Program - Alabama District (Report Number
DR-AR-04-004, June 30, 2004), and Self-Service Vending Program - Atlanta District
(Report Number DR-AR-04-002, July 1, 2004). The reports stated that district officials
could improve their process for redeploying vending equipment that does not meet
minimum revenue requirements. In FY 2003, 54 percent (857 of 1,573) of the vending
3
  This number includes three currency changer machines, which do not generate revenue.
4
  This number includes three currency changer machines, which do not generate revenue.
5
  Obsolete equipment was not included in the minimum revenue analysis.



                                                       2
Self-Service Vending Program –                                                                         DR-AR-04-010
 Rio Grande District


machines in the Tennessee, Alabama, and Atlanta, Districts did not meet the minimum
revenue requirements and the districts may have missed revenue opportunities of
approximately $2.7 to $8.5 million by not redeploying this equipment. Additionally,
these districts continued to use 250 obsolete machines and possibly incurred
maintenance and repair expenses. Management agreed with all recommendations and
the actions taken and planned were responsive to the recommendations.

                                               Audit Results
Opportunities exist for Rio Grande District officials to improve the effectiveness and
efficiency of the Self-Service Vending Program and to meet or exceed program goals of
increasing revenue and reducing operating costs. Specifically, Rio Grande District
officials could increase revenue opportunities by redeploying equipment that does not
meet minimum revenue requirements. Further, Rio Grande District officials could
possibly reduce maintenance and repair costs by discontinuing the use of obsolete
equipment. Additionally, while our physical observation of vending machines in the
Rio Grande District indicated that overall the machines were easily accessible, the
machines were not always operable.

Redeployment of Vending Machines

Rio Grande District officials could improve their process for redeploying vending
equipment that does not meet Postal Service’s minimum revenue requirements.
Specifically, during FY 2003, our review of the vending equipment revenue reports
indicated that 62 percent (433 of 702) did not meet the minimum revenue requirements.
Vending equipment sales were approximately $4 million, which was significantly less
than the minimum revenue requirement of $8.1 million. As a result, the Rio Grande
District may have missed revenue opportunities of approximately $1.2 million to
$4.1 million by not redeploying this equipment.6

Additionally, during the first quarter of FY 2004, our review of the vending equipment
revenue reports indicated that 58 percent (414 of 710) did not meet the minimum
revenue requirements. Vending equipment sales were approximately $840,000, which
was significantly less than the minimum revenue requirement of $1.675 million. As a
result, the Rio Grande District may have missed revenue opportunities of approximately
$835,000 by not redeploying this equipment.



6
  For each vending machine, we calculated the shortfall in revenue compared to the established minimum for a
particular machine type and referred to this shortfall as “missed revenue opportunities.” The $1.2 million represents
the minimum total possible missed revenue opportunities after giving consideration to Postal Service guidance, which
requires district officials to review revenue reports and take appropriate actions if a vending machine’s revenue does
not reach plan in three to six accounting periods. The $4.1 million represents the maximum total possible missed
revenue opportunities for FY 2003 and is calculated by subtracting actual revenues generated from the total of all
machine minimum revenue requirements.




                                                          3
Self-Service Vending Program –                                                                   DR-AR-04-010
 Rio Grande District


One of the Self-Service Vending Program’s goals is to increase revenue through the
redeployment of equipment. The Postal Service should redeploy equipment that does
not meet minimum revenue requirements to other locations. Postal Service policy,
Handbook PO-102, Self-Service Vending Operational and Marketing Program,
Chapter 2, Section 256, May 1999 (updated with Postal Bulletin revisions through
December 25, 2003), establishes the minimum revenue requirements for vending
machines. The district retail office is responsible for evaluating equipment revenue to
find the right location for the right machine. If self-service vending equipment is located
in an area where it is unable to generate enough revenue to meet the minimum
requirement, the equipment must be considered for redeployment. If revenue does not
meet the minimum requirement in three to six accounting periods, the district retail office
should place the equipment on a list for redeployment; notify any office where changes
will be made; prepare a typewritten or computer-generated notice, approved through the
district retail office, to be posted in the lobby informing customers 30 days before
removing the equipment; and complete Postal Service (PS) Form 4805, Maintenance
Work Order, and move the equipment to a better location.

District officials did not initiate redeployment action for the underperforming vending
machines during FY 2003 and the first quarter of FY 2004 because the Self-Service
Vending Program was not considered a high priority. Work efforts were directed to
higher priorities such as deploying automated postal centers.7 Further, the district had
only two retail specialists and their efforts were focused on managing other retail
programs such as the contract postal units and the Mystery Shopper program.
Additionally, district officials were concerned about the potential adverse impact to
customer service if the machines were moved. Previous attempts to redeploy
underperforming equipment were met with resistance from postmasters because the
nonavailability of vending equipment in their facilities would impact customer service.
However, by not taking action to redeploy underperforming equipment, the district could
miss revenue opportunities during the remainder of FY 2004.

District officials expressed that they did not have any concerns with the Postal Service’s
criteria and methodology used to establish minimum revenue requirements. However,
district officials did express that the criteria does not take into account the challenges,
resources, and coordination efforts required to redeploy vending equipment. We plan to
forward the district’s concerns to Postal Service Headquarters.

We discussed the results with Rio Grande District officials and they agreed that they
could improve their redeployment process for equipment that does not meet the Postal
Service’s minimum revenue requirements. District officials indicated that plans are
being made to reassess vending locations based on an analysis of vending operations
and receipt of 53 automated postal centers.



7
 Automated postal centers are a newly developed kiosk that provides convenient 24-hour automated access to
purchase stamps as well as many premium delivery services such as Express and Priority Mail.



                                                       4
Self-Service Vending Program –                                                                    DR-AR-04-010
 Rio Grande District


Recommendation

We recommend the Manager, Rio Grande District, direct the Retail Manager to:

1. Review revenue reports to identify underperforming equipment; notify postmasters of
   vending equipment that generates low revenue; and giving consideration to all
   feasible alternatives, complete all necessary actions to redeploy underperforming
   equipment as often as possible.

Management’s Comments

Management agreed with our finding and recommendation. The District Manager
stated the retail manager has initiated the process of reviewing the VESS Report and
has identified vending equipment that is not meeting the minimum required revenue.
Postmasters have been notified in writing that underperforming vending equipment is
being removed and an evaluation has been conducted to deploy the equipment to
another location. Management stated their review actions will be an ongoing process;
however, the initial 25 vending machines identified for removal, redeployment, or
destruction will be completed by quarter 2, FY 2005.

Evaluation of Management’s Comments

Management’s actions taken or planned are responsive to the recommendation and
should resolve the issue identified in this finding.

Use of Obsolete Equipment

In FY 2003, Rio Grande District officials continued to use 1188 obsolete machines and
possibly incurred maintenance and repair expenses, although Postal Service policy
discontinued the maintenance and repair support for the machines in 2000.9 Our review
of vending equipment revenue reports showed 92 percent (109 of 118) did not meet
minimum revenue requirements. Additionally, during the first quarter of FY 2004, our
review of vending equipment revenue reports indicated that 86 percent (106 of 123) of
the machines did not meet minimum revenue requirements.

District officials stated that they continued to use and maintain the obsolete equipment
because removing the equipment would not be cost effective and because of concerns
regarding the potential adverse impact on customer service. As a result, during
FY 2003 and the first quarter of FY 2004, the district possibly incurred maintenance and
repair expenses that may have exceeded the revenue generated by continuing to
operate and maintain the obsolete machines. We were unable to determine the amount

8
 This number excludes three currency changer machines, which do not generate revenue.
9
 This Maintenance Management Order (MMO) supplements MMO-018-96, June 21, 1996, Discontinuance of
Support for Obsolete Vending Machines. This MMO includes discontinuance of support for recently obsolete models
of vending machines announced in the Material Logistics Bulletin (MLB-PP-00-004), issued on May 18, 2000.



                                                       5
Self-Service Vending Program –                                                                     DR-AR-04-010
 Rio Grande District


of repair and maintenance expenses associated with the machines because the Postal
Service does not capture the data for each machine.10

Periodically, the Postal Service lists vending equipment as obsolete, meaning that the
equipment has exceeded its expected life cycle and will no longer receive support from
maintenance organizations. All inactive retail vending equipment items must be
reported to the district material management specialist. When retail vending equipment
items are obsolete or listed as excess, the Postal Service may consider them for
disposal action. Parts from obsolete machines may be salvaged and stored for
maintenance or repair of other compatible equipment. In June 2000, Postal Service
policy listed the obsolete vending equipment that should no longer receive support from
maintenance organizations.

By continuing to use and maintain obsolete machines, the district will possibly incur
repair and maintenance costs that may exceed the revenue generated. We recognize
management’s desire to provide customer service; however, because the Postal
Service does not capture repair and maintenance, management has no means of
assessing whether the benefits of operating the obsolete equipment outweigh the costs
to operate it. District officials indicated that plans will be made to replace the obsolete
machines when new automated postal centers are deployed to the district locations.

Recommendation

We recommend the Manager, Rio Grande District, direct the Retail Manager to:

2. Consider all feasible alternatives, and complete all necessary actions to eliminate
   repair and maintenance cost for the obsolete equipment.

Management’s Comments

Management agreed with our finding and recommendation. The retail manager will
utilize VESS to identify locations with obsolete vending equipment and initiate actions to
remove equipment that is underperforming. Obsolete equipment identified as needing
repair will be removed or destroyed. Management initiated action and will continue this
process on an ongoing basis.

Evaluation of Management’s Comments

Management’s actions taken or planned are responsive to our recommendation and
should resolve the issue identified in this finding.




10
     We plan to address this issue in a capping report to Postal Service Headquarters officials.



                                                             6
Self-Service Vending Program –                                                 DR-AR-04-010
 Rio Grande District


Physical Observation of Vending Equipment

Our physical observation of vending machines in the Rio Grande District indicated that
overall the machines were easily accessible, but not always operable. Specifically,
10 percent (2 of 20) of the machines judgmentally selected for review were not
operating properly in July 2004. One machine was vandalized and could not be
repaired. District officials provided a work order to remove this machine and replace it
with another vending machine. The second machine was broken, but did not have a
sign informing customers that it was out of order. District officials stated this machine
would be removed by August 8, 2004. We reviewed the VESS and verified the district
removed the machine.

VESS is a nationwide computerized reporting system for the Self-Service Vending
Program, which is used as a management tool for real-time tracking of vending cost
in relation to sales. Data maintained in the VESS database is generated from
PS Form 8130, Vending Equipment Sales and Service Daily Activity Log.11 Each
employee associated with self-service vending equipment must complete a
PS Form 8130 detailing the equipment serviced and maintained during each month.

Based on management’s actions to remove the inoperable machines, we offer no
recommendations.

We appreciate the cooperation and courtesies provided by your staff during our review.
If you have any questions or need additional information, please contact Debra D.
Pettitt, Director, Delivery and Retail, or me at (703) 248-2300.

/s/ Mary W. Demory

Mary W. Demory
Deputy Assistant Inspector General
 for Operations and Human Capital

Attachment

cc: John A. Rapp
    Kenneth W. Britton
    Mary Barcenez
    Pamela S. Gleason
    Steven R. Phelps




11
     We plan to conduct an audit on the accuracy of data in VESS.



                                                           7
Self-Service Vending Program –                          DR-AR-04-010
 Rio Grande District


                      APPENDIX. MANAGEMENT’S COMMENTS




                                   8
Self-Service Vending Program –       DR-AR-04-010
 Rio Grande District




                                 9
Self-Service Vending Program –        DR-AR-04-010
 Rio Grande District




                                 10
